No. 20-___
In The
Supreme Court of the United States
ARROW HIGHWAY STEEL, INC.,
Petitioner,
v.
ROBERT DUBIN,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE
CALIFORNIA COURT OF APPEAL
APPENDIX TO A PETITION FOR A WRIT OF
CERTIORARI
PAUL HOFFMAN
Counsel of record
JOHN WASHINGTON
SCHONBRUN SEPLOW
HARRIS HOFFMAN &
ZELDES LLP
200 Pier Ave, Ste. 226
Hermosa Beach, CA 90254
(310) 396-0731
hoffpaul@aol.com
jwashington@sshhzlaw.com

Attorneys for Petitioner

MATTHEW C. MICKELSON
LAW OFFICES OF
MATTHEW C.
MICKELSON
16055 Ventura Blvd.,
Ste 1230
Encino, CA 91436
(818) 382-3360
matthew@mickelsonlegal.com
Erwin Chemerinsky
University of California, Berkeley
School of Law
214 Law Building
Berkeley, CA 94720
(510) 642-6483
echemerinsky@law.berkeley.edu

1a

APPENDIX A

2a

SUPREME COURT OF CALIFORNIA
MINUTES
WEDNESDAY, FEBRUARY 10, 2021
SAN FRANCISCO, CALIFORNIA
S265889
B303289 Second Appellate District, Div. 2
ARROW HIGHWAY STEEL,
INC. v. DUBIN (ROBERT)
Petition for review denied.
Cuéllar, J., is of the opinion the petition should be
granted.

3a

APPENDIX B

4a
CERTIFIED FOR PUBLICATION
IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION 2

ARROW HIGHWAY
STEEL, INC.,
Plaintiff and Appellant,

B303289
(Los Angeles County
Super. Ct. No.
EC068969)

v.
ROBERT DUBIN,
Defendant and
Respondent.
Filed October 29, 2020
APPEAL from a judgment of the Superior Court of
Los Angeles County, John J. Kralik, Judge. Affirmed.
Law Offices of Matthew C. Mickelson and Matthew
C. Mickelson for Plaintiff and Appellant.
Alpert Barr & Grant and David M. Almaraz for
Defendant and Respondent.
******

In Bendix Autolite Corp. v. Midwesco Enterprises,
Inc. (1988) 486 U.S. 888 (Bendix), the United States
Supreme Court held that an Ohio statute that tolled

5a
the statute of limitations while a defendant is out of
state impermissibly burdened interstate commerce
and was accordingly unconstitutional. (Id. at pp. 891895.) California has a similar tolling statute—Code of
Civil Procedure section 351—that, as relevant here,
applies when a defendant “departs from the State”
“after [a] cause of action accrues.” (Code Civ. Proc.,
§351.)1
In this case, a creditor sued in 2018 to enforce a
1997 judgment against a judgment debtor who
departed California in 1998 to start a new business in
Nevada. Because this lawsuit is timely only if section
351 applies, this case squarely presents the question:
Does section 351 impermissibly burden interstate
commerce—and hence violate the so-called “dormant
Commerce Clause”—when it is used to toll the statute
of limitations against a judgment debtor who moved
away from California to engage in commerce after the
judgment was entered? We conclude that the answer
is “yes.” This is the answer most consistent with
California case law. The creditor urges us to follow a
recent Sixth Circuit case that charts a different path
than this California precedent, Garber v. Menendez
(6th Cir. 2018) 888 F.3d 839 (Garber), but we find
Garber to be unpersuasive.
Accordingly, we affirm the trial court’s grant of
summary judgment to the debtor on the ground that
the creditor’s lawsuit is time-barred.
All further statutory references are to the Code of Civil
Procedure unless otherwise indicated.
1

6a

I.

FACTS AND
PROCEDURAL BACKGROUND
Facts

Between 1967 and 1994, Arrow Highway Steel,
Inc. (Arrow) hired Robert Dubin (Dubin) to do its
bookkeeping and to obtain credit financing for its
operations. Both Arrow and Dubin were, during that
time, based in California. Dubin obtained Arrow’s
credit financing from out-of-state lenders, and many of
Dubin’s other clients were located outside California.
In the early 1990s, Dubin embezzled money from
Arrow. For his crimes, Dubin was convicted of
bankruptcy fraud in federal court and served time in
federal prison between 1995 and 1998, and after a
brief period of parole, in 1998 and 1999.
In March 1994, Arrow and its principals—
Seymour and Henrietta Albert—sued Dubin and
others to recover the money Dubin embezzled from
Arrow.2 On February 27, 1997, Arrow and Dubin
entered into a stipulated judgment pursuant to which
Dubin agreed to pay Arrow $937,000.
Dubin moved to Nevada after he was released from
federal prison (the first time) in 1998. After his final
release from prison, Dubin founded a new accounting,
bookkeeping and tax business that currently has
clients all around the United States and around the
world.
At no point since 1997 did Arrow “renew” its
judgment against Dubin.
Arrow sued others as well, but they are not relevant to this
appeal.
2

7a
II. Procedural Background
On July 3, 2018, Arrow filed a complaint
seeking to enforce its 1997 judgment against
Dubin, along with interest and attorney fees.
Dubin filed a motion for summary judgment on the
ground that Arrow’s lawsuit was time-barred because
section 351, the tolling statute Arrow relies upon to
render its action timely, violated the dormant
Commerce Clause as applied to Dubin.3
Following further briefing, and a hearing, the trial
court granted summary judgment on the ground that
Arrow’s lawsuit was time- barred because section 351
was unconstitutional. The court reasoned that the
dormant Commerce Clause was, as a threshold
matter, implicated in this case because “Dubin [had] .
. . engaged in interstate commerce while he performed
accounting services for Arrow . . . .” To decide whether
section 351 violated the dormant Commerce Clause as
applied in this case, the court engaged in a two-part
inquiry by (1) “assess[ing] the burden section 351
would impose on interstate commerce under the
circumstances,” and (2) “determin[ing] whether the
burden is counterbalanced by state interests
supporting section 351.” As to the first part, the court
found that section 351 imposed an “unreasonable
burden on interstate commerce” because it “force[d]” a
“‘nonresident individual engaged in interstate
commerce’” “‘to choose between [abandoning his
Nevada business and returning to] California for
several years’” in order to run down the limitations
period or staying in Nevada to maintain his business
Dubin also argued that Arrow, as a dissolved corporation,
lacked standing to enforce the lawsuit. This second ground
(which the trial court rejected) is not before us in this appeal.
3

8a
but forfeiting his limitations defense and remaining
“‘subject to suit in California in perpetuity.’”
As to the second part, the court found that
California’s interests did not “outweigh [this] burden”
because the justification for tolling lawsuits against
out-of-state defendants was largely undermined by
“California[’s] . . . long-arm statute,” which “would
permit service on a[n out-of-state] defendant like
Dubin.” Balancing these factors, the court found that
applying section 351 “to this case would impermissibly
burden interstate commerce and thereby violate the
[dormant] Commerce Clause as applied to Dubin.”
Following the entry of judgment, Arrow
filed this timely appeal.
DISCUSSION
Arrow argues that the trial court erred in
granting summary judgment for Dubin because, in its
view, section 351 does not run afoul of the dormant
Commerce Clause on the facts of this case. As a result,
Arrow continues, its action against Dubin has been
tolled since 1998, and thus its 2018 lawsuit on the
1997 judgment is still timely.
A party in a civil case is entitled to summary
judgment if, among other things, he can show that the
undisputed facts “establish[] an affirmative defense”
“as a matter of law.” (§ 437c, subds. (c) & (o)(2).) Thus,
summary judgment is appropriate where the
undisputed facts establish that a claim is barred by
the statute of limitations. (Jolly v. Eli Lilly & Co.
(1988) 44 Cal.3d 1103, 1112; Romano v. Rockwell
Internat., Inc. (1996) 14 Cal.4th 479, 487.) We
independently review a trial court’s grant of summary
judgment. (Hartford Casualty Ins. Co. v. Swift
Distribution, Inc. (2014) 59 Cal.4th 277, 286.)

9a
California’s Enforcement of Judgments Law (§
680.010 et seq.) grants judgment creditors seeking to
extend the enforceability of a final judgment two
options: (1) they can file an application with the court
that issued the judgment to renew that judgment for
another 10 years (§§ 683.110, 683.120), or (2) they can
file an action to enforce the judgment, and as long as
that action is timely filed, the creditors are entitled to
enforcement
(§ 683.050 [authorizing such actions];
Green v. Zissis (1992) 5 Cal.App.4th 1219, 1222-1223
(Green) [entitlement to relief automatic]; {expndtw-1
Trend v. Bell (1997) 57 Cal.App.4th 1092, 1098
[same]). (See generally Kertesz v. Ostrovsky (2004) 115
Cal.App.4th 369, 372-373 (Kertesz) [detailing two
options]; Pratali v. Gates (1992) 4 Cal.App.4th 632,
637-638 (Pratali) [same].)
If the judgment creditor pursues the latter option,
it must file its action within 10 years of the final entry
of judgment or its last renewal of judgment, whichever
comes later. (§§ 337.5, subd.
(b) [setting 10-year limitations period for such
actions], 683.220 [renewal extends time for such
actions].) Section 351 is an exception to all statutes of
limitations in California, including this one. It
provides:
“[1] If, when the cause of action accrues
against a person, he is out of the State,
the action may be commenced within the
term herein limited, after his return to
the State, and [2] if, after the cause of
action accrues, he departs from the State,
the time of his absence is not part of the
time limited for the commencement of
the action.” (§ 351.)

10a
As the bracketed numbers indicate, section 351
tolls the limitations period in two different
situations—namely, (1) when the defendant is outside
California at the moment the plaintiff’s cause of action
accrues, and (2) when the defendant is present in
California at the moment the cause of action accrues,
but he subsequently “departs” the state. (Kohan v.
Cohan (1988) 204 Cal.App.3d 915, 920 (Kohan).) This
second clause applies whether the departure is
temporary (Green, supra, 5 Cal.App.4th at p. 1223) or
permanent (Heritage Marketing & Ins. Services, Inc.
v. Chrustawka (2008) 160 Cal.App.4th 754, 761
(Heritage)).
In this case, Arrow’s stipulated judgment against
Dubin was finally entered on the day it was signed—
February 27, 1997. (See Cadle Co. II, Inc. v. Sundance
Financial, Inc. (2007) 154 Cal.App.4th 622, 624
[generally, “[a] stipulated judgment
. . . becomes final when entered”].) As a consequence,
Arrow had 10 years—until February 27, 2007—to
bring its enforcement action. Arrow did not do so until
July 3, 2018. The only way that Arrow’s enforcement
action is timely is if section 351 applies, which occurs
only if it withstands the dormant Commerce Clause
challenge leveled by Dubin. The constitutionality of a
statute is a question of law we independently review.
(In re Taylor (2015) 60 Cal.4th 1019, 1035.)

11a
III.

The Law of the Dormant Commerce
Clause
A. Generally

The Commerce Clause of the United States
Constitution grants Congress the power “[t]o regulate
Commerce . . . among the several States.” (U.S. Const.,
art. I, § 8, cl. 3.) By entrusting Congress with this
power, the clause implies that the states lack that
power. (McBurney v. Young (2013) 569 U.S. 221, 235
(McBurney) [“the Court has long inferred that the
Commerce Clause itself imposes certain implicit
limitations on state power”]; Dep’t of Revenue v. Davis
(2008) 553 U.S. 328, 337 (Davis) [same]; see also Pac.
Merch. Shipping Ass’n. v. Goldstene (9th Cir. 2011)
639 F.3d 1154, 1177 (Pacific Merchant) [“the whole
objective of the dormant Commerce Clause doctrine is
to protect Congress’s latent authority from state
encroachment”].) This “negative implication” of the
clause is commonly referred to as the “dormant
Commerce Clause.” (Davis, at pp. 337-338.) In
defining the contours of the dormant Commerce
Clause, the courts have sought to preclude states from
engaging in “economic protectionism” (that is, from
adopting laws “designed to benefit in-state economic
interests by burdening out-of-state competitors”)
while at the same time allowing the states to retain
one of the chief attributes reserved to them as
members of our federalist system of government (that
is, the ability to operate as semi-autonomous
laboratories able to experiment and innovate in
regulating their own affairs and economies). (New
Energy Co. v. Limbach (1988) 486 U.S. 269, 273-274;
Davis, at p. 337-338; Ariz. State Legis. v. Ariz. Indep.
Redistricting Comm’n (2015) 576 U.S. 787, 817

12a
[“‘recogniz[ing] the role of the States as laboratories
for devising solutions to difficult legal problems’
[citation]”].)
In assessing whether a state law violates the
dormant Commerce Clause, courts are to ask two
questions: (1) Does the state law “discriminate[]
against interstate commerce,” and if not, (2) Does the
state law nevertheless incidentally burden interstate
commerce? (Davis, supra, 553 U.S. at p. 338;
McBurney, supra, 569 U.S. at p. 235.) A state law
discriminates against interstate commerce if its
purpose or “‘practical effect’” is to discriminate against
interstate commerce by giving local interests or
residents a leg up on out-of-state interests or
residents. (Maine v. Taylor (1986) 477 U.S. 131, 138
(Maine); Pacific Merchant, supra, 639 F.3d at p. 1178.)
Such a discriminatory state law is valid only if it
“‘advances a legitimate local purpose that cannot be
adequately served by reasonable nondiscriminatory
alternatives.’” (Or. Waste Sys., Inc. v. Dep’t of Envtl.
Quality (1994) 511 U.S. 93, 100-101 (Oregon Waste).)
A state law that “‘regulates evenhandedly’” but
nevertheless has “‘“incidental effects” on interstate
commerce’” is valid as long as its burden on interstate
commerce is not “‘clearly excessive in relation to [its]
putative local benefits.’” (Oregon Waste, at p. 99; Pike
v. Bruce Church (1970) 397 U.S. 137, 142.)
B. The Bendix case

State laws that toll the statute of limitations on
civil actions for out-of-state defendants (but not instate defendants) are not uncommon. The leading
case examining whether they run afoul of the dormant
Commerce Clause is Bendix, supra, 486

13a
U.S. 888.
Bendix examined an Ohio law that tolled the
statute of limitations for any person or corporation not
“present” in the state. (Bendix, supra, 486 U.S. at p.
889.) In that case, a Delaware corporation sued an
Illinois corporation in Ohio and sought to avoid the
applicable four-year statute of limitations by invoking
the Ohio tolling law on the ground that the Illinois
corporation was not present in Ohio because it had not
appointed an agent for service of process in Ohio. (Id.
at pp. 889-890.) As a threshold matter, Bendix held
that review under the dormant Commerce Clause is
warranted if a state “denies w-1 ordinary legal
defenses or like privileges to out-of-state persons or
corporations engaged in commerce.” (Id. at p. 893.)
This threshold was satisfied because Ohio’s statute
denied the Illinois corporation the right to rely on the
statute of limitations defense due to its out-of-state
status.
“[C]hoos[ing]” to treat the Ohio law as a
nondiscriminatory state law that incidentally
burdened interstate commerce, Bendix examined (1)
“[t]he burden the tolling statute places on interstate
commerce,” and (2) the state’s “putative interests”
supporting the law. (Bendix, supra, 486 U.S. at pp.
891-892.) Bendix found that the tolling law placed a
“significant” burden on interstate commerce because
it “forces” an out-of-state “corporation to choose
between exposure to the general jurisdiction of Ohio
courts” (by effectively becoming an Ohio resident by
designating an agent for service of process), on the one
hand, and “forfeiture of the limitations defense[ and]
remaining subject to suit in Ohio in perpetuity” (by
remaining out of state), on the other hand. (Id. at p.
893.) At the same time, Ohio’s putative interest in the

14a
tolling law was weak: The law was meant to “protect[]”
Ohio “residents from corporations who become liable
for acts done within the State but later withdraw from
the jurisdiction,” but this interest was not appreciably
advanced by the tolling law because a very similar
protection was already provided by Ohio’s “long-arm
statute,” which “would have permitted service” on the
Illinois corporation
“throughout the period of
limitations.” (Id. At p. 894.) Bendix consequently held
that “the burden imposed on interstate commerce by
the tolling statute exceed[ed] any local interest that
the State might advance.” (Id. at p. 891.)
C. Analytical framework
In light of the general law governing the dormant
Commerce Clause, and the specific application of that
law to tolling statutes aimed at out-of-state
defendants in Bendix, analyzing whether section 351
violates that clause is a three-step process. First, the
court must determine whether the defendant—here,
Dubin—was engaged in interstate commerce. If not,
then section 351 does not satisfy Bendix’s threshold
requirement that the state law “den[y]” an “ordinary
legal defense[] or like privilege[]” to an “out-of-state
person[] or corporation[] engaged in commerce.”
(Bendix, supra, 486 U.S. at p. 893, italics added.)
Second, and if Dubin was engaged in interstate
commerce, then the court must determine whether
section 351 discriminates against interstate
commerce—either by purpose or in practical effect.
(Davis, supra, 553 U.S. at p. 338; Maine, supra, 477
U.S. at p. 138.) Third, and if Dubin was engaged in
interstate commerce but section 351 does not
discriminate against interstate commerce, then the
court must determine whether the burdens that

15a
tolling under section 351 places on interstate
commerce are “‘clearly excessive’” in relation to the
statute’s “‘putative local benefits.’” (Oregon Waste,
supra, 511 U.S. at p. 99; Bendix, at pp. 891-892.)
IV.

Analysis
A. Was Dubin engaged in interstate
commerce?

In setting forth its threshold requirement that the
out-of- state defendant be “engaged in [interstate]
commerce,” Bendix did not specify whether the
defendant had to be so engaged at the time of the
underlying transaction giving rise to the lawsuit or,
instead, at some point thereafter. (Bendix, supra, 486
U.S. at p. 893.) Most of the cases examining section
351 have looked solely to whether the out-of-state
defendant was engaged in interstate commerce at the
time of the underlying transaction. (E.g., Dan Clark
Family Limited Partnership v. Miramontes (2011) 193
Cal.App.4th 219, 232 (Dan Clark) [examining whether
underlying transaction sought to be tolled was an
“interstate commercial transaction”]; Abramson v.
Brownstein (9th Cir. 1990) 897 F.2d 389, 392 [same];
cf. Kohan, supra, 204 Cal.App.3d at p. 924 [same, but
concluding that transaction occurring in Iran did not
involve interstate commerce]; Pratali, supra, 4
Cal.App.4th at p. 643 [same, but concluding that a
“single amicable loan” transaction between two
California residents did not involve interstate
commerce]; Mounts v. Uyeda (1991) 227 Cal.App.3d
111, 122 [same, but concluding that underlying
automobile altercation involving two California
residents as private parties did not involve interstate
commerce].) We need not decide whether the time of

16a
the underlying transaction should be the sole focus
because it is undisputed in this case that Dubin was
involved in interstate commerce both at the time he
embezzled money from Arrow (which is what gave rise
to the stipulated judgment in this case) and currently,
in his interstate and international accounting,
bookkeeping and tax practice.
Thus, the answer to this first question is “yes.”
B. Does section 351 discriminate
against interstate commerce in
purpose or practical effect?
Section 351 does not discriminate against
interstate commerce by treating local interests or
residents more favorably than out-of-state interests or
residents. (Maine, supra, 477 U.S. at 138.) Section
351 is not facially discriminatory because it “makes no
distinction between residents and nonresidents for
purposes of tolling.” (Pratali, supra, 4 Cal.App.4th at
p. 641; Dan Clark, supra, 193 Cal.App.4th at p. 232,
fn.9.) Section 351 also does not have a discriminatory
purpose because, as originally enacted in 1872, its
purpose was to stop the statute of limitations from
running against out-of-state defendants who were
otherwise not amenable to service of process (Dew v.
Appleberry (1979) 23 Cal.3d 630, 634 (Dew)), and not
for some broader economic protectionist purpose. And
section 351 does not have the “practical effect” of
treating local interests or residents more favorably.
Section 351’s tolling provisions may be invoked by
plaintiffs regardless of their residency, and it applies
against defendants regardless of their residency or at
what point in time they left the State of California.
Although, as a practical matter, section 351 will by
definition be applied only against entities who are out

17a
of state during the period of tolling, this reality does
not equate to a discriminatory effect because the
statute nevertheless “regulate[s] evenhandedly . . .
without regard to whether the [parties to the lawsuit
or the underlying transaction giving rise to the lawsuit
came] from outside the State.” (CTS Corp. v.
Dynamics Corp. of Am. (1987) 481 U.S. 69, 88; Minn.
v. Clover Leaf Creamery Co. (1981) 449 U.S. 456, 471472; accord, Garber, supra, 888 F.3d at p. 843 [so
holding, as to a similar tolling statute].)
Thus, the answer to this second question is “no.”
C. Does section 351 place burdens on
interstate commerce that are clearly
excessive in relation to its putative
local benefits?
Like the state tolling law at issue in Bendix,
section 351 places a “significant” burden on interstate
commerce because it “force[s] defendants . . . to choose
between remaining in [or returning to] California until
the limitations period expire[s], or [remaining outside
of California but] forfeiting the limitations defense
and [thereby] remaining ‘subject to suit in California
in perpetuity.’” (Dan Clark, supra, 193 Cal.App.4th at
p. 233; Heritage, supra, 160 Cal.App.4th at p. 764;
Abramson, supra, 897 F.2d at p. 392 [for these
reasons, “[s]ection 351 imposes a significant burden”].)
This significantly burdens interstate commerce if the
defendant who is forced to make this choice has
“travel[ed]” out of state to “facilitat[e] . . . interstate
commerce” because, in that situation, section 351
creates the incentive for the out-of-state defendant—
and his commercial activity—to remain in state rather
than out of state. (Filet Menu, Inc. v. Cheng (1999) 71

18a
Cal.App.4th 1276, 1283-1284 (Filet Menu); Heritage,
at p. 760. 4
This is certainly the case here, where Dubin has
set up an entire new interstate—and international—
business in Nevada. And like the putative state
interest underlying the Ohio tolling law in Bendix, the
putative state interest advanced by section 351 is
weak. Like the law at issue in Bendix, section 351 was
initially designed to prevent defendants who left the
state— and thereby became beyond the reach of
process—from escaping liability altogether. (Dew,
supra, 23 Cal.3d at pp. 636-637.) Like the law at issue
in Bendix, the advent of long-arm statutes and their
validity as a matter of due process (see Int’l Shoe Co.
v. Wash. (1945) 326 U.S. 310, 316) mean that out-ofstate defendants are now subject to process, such that
section 351’s original function is largely a quaint relic
of the bygone era. To be sure, section 351 is not
entirely purposeless these days: By tolling the statute
4

Because this incentive itself creates a significant burden on
interstate commerce, we need not decide whether the
disincentive that section 351 places on any “travel across state
lines” – whether or not commerce-related – also constitutes a
significant burden. The California courts appear split on this
point. (Compare Filet Menu, at pp. 1283-1284 [section 351
burdens interstate commerce only when the out-of-state “travel
[is] for the facilitation of interstate commerce”] with Heritage, at
p. 764 [suggesting that “creating disincentives to travel across
state lines . . . limits the exercise of the right to freedom of
movement”].) Although courts have generally concluded that
section 351 does not violate the federal right to interstate travel
(Dew, supra, 23 Cal.3d at pp. 636-637), this conclusion appears
to be analytically distinct form whether the incentives section
351 creates regarding whether to travel to conduct one’s business
significantly burden interstate commerce under the federal
dormant Commerce Clause.

19a
of limitations for out-of-state defendants, section 351
“ease[s] the burden—however small—of locating and
serving out-of-state defendants” by stopping the clock.
(Dew, at pp. 636-637; Pratali, supra, 4 Cal.App.4th at
pp. 641-642.) Although this residual function may be
sufficiently rational to withstand equal protection
scrutiny (Dew, at pp. 636-637), Bendix and all of the
cases applying Bendix to section 351 make clear that
this function is too weak to justify the “excessive
burden” that section 351 otherwise places on
interstate
commerce.
(Heritage,
supra,
160
Cal.App.4th at p. 763 [“‘“[T]he state’s interest in aiding
its residents’ efforts to litigate against non- resident
defendants d[oes] not justify denying non-residents
the protections of the statute of limitations,
particularly when long- arm service of process [is]
available[]” [citation]’”]; Dan Clark, supra, 193
Cal.App.4th at pp. 233-234 [same]; Filet Menu, supra,
71 Cal.App.4th at p. 1283 p. 393 [“Because th[e state’s
interest] did not support the corresponding burden
created by the Ohio tolling statute in Bendix, it also
cannot support the burden created by [section] 351”].)
Thus, the answer to the third question is “yes,” and
section 351 violates the dormant Commerce Clause as
applied to a defendant who moved out of state to
operate a business engaged in interstate commerce.
V.

Arrow’s Arguments

Arrow proffers three main reasons why the
analysis set forth above is incorrect: (1) that analysis
is out of step with the Sixth Circuit’s recent decision
in Garber, supra, 888 F.3d 839, (2) that analysis is
different—and comes out in Arrow’s favor—when

20a
section 351 is used to toll an action to enforce a
judgment, and (3) section 351 still serves a rational
purpose.
A. Garber
In 2018, the Sixth Circuit held that the Ohio tolling
law found to violate the dormant Commerce Clause in
Bendix did not run afoul of it as applied to an Ohio
resident who moved out of state to retire before being
sued. (Garber, supra, 888 F.3d at pp. 840, 844-845.)
Like Bendix, Garber recognized that Ohio’s tolling law
put defendants to a choice—stay in Ohio and run down
the statute of limitations clock, or move away and
remain subject to suit indefinitely. (Garber, at p. 844.)
But Garber viewed this forced choice as being no
different from a myriad of other state laws that
“provide benefits to residents that the residents put in
jeopardy if they move” out of state. (Ibid.) What is
more, Garber regarded such state laws—that is, laws
aimed at “attract[ing] and retain[ing] residents
through policy choices”—as being “a
healthy
byproduct of the laboratories of democracy in our
federalism-based system of government, not a sign of
unconstitutional protectionism.” (Ibid.) For support,
Garber drew upon McBurney, supra, 569 U.S. 221.
McBurney held that a Virginia law that made all
public records “‘open to inspection and copying’” to
Virginia residents (but not to nonresidents) did not
violate the dormant Commerce Clause because it
“merely provide[d] a service to local citizens that
would not otherwise be available at all”; because
Virginia itself had “created” the “‘market’ for public
documents in Virginia,” McBurney held, its law
restricting access to in-state residents did not
“‘interfere[] with the natural functioning of the

21a
interstate market.’” (McBurney, at pp. 223, 235, italics
added.) Garber read McBurney as declaring that there
is no dormant Commerce Clause defect with state laws
that “discourage[] [in-state residents] from moving to
other States because they would lose” a benefit.
(Garber, at p. 844.) Garber went on to assume that the
Ohio tolling law might violate the dormant Commerce
Clause if the defendant had introduced “proof of real
burdens” imposed by the law (id. at p. 845), but found
that the defendant in that case had not done so.
Garber distinguished Bendix on the ground that the
tolling law, when applied to a defendant who had once
been a resident of Ohio, “merely creates a benefit for
residents of Ohio.” (Id. at p. 846.)
Were the slate blank, we may well agree with
Garber’s analysis. But the slate is anything but blank.
As Arrow itself recognizes, Garber is inconsistent
with how the California courts have applied the
dormant Commerce Clause to section 351. If, as
Garber suggests, tolling laws are valid when applied
to in-state residents who move out of state, then
Heritage—which also involved a defendant who moved
out of state but concluded that section 351 was
constitutionally invalid—was wrongly decided.
(Heritage, supra, 160 Cal.App.4th at pp. 757-758.)
What is more, subsequent cases have cited Heritage
with approval. (E.g., Dan Clark, supra, 193
Cal.App.4th at pp. 230, 233.) “Where out-of-state
authority is at odds with California law, it lacks even
persuasive value,” particularly when that authority is
a lone voice in the woods. (Lucent Technologies, Inc.
v. Board of Equalization (2015) 241 Cal.App.4th 19,
35, citing Fairbanks v. Superior Court (2009) 46
Cal.4th 56, 63; cf. Etcheverry v. Tri-Ag Service, Inc.
(2000) 22 Cal.4th 316, 321 [noting that the decisions

22a
of lower federal courts “on a federal question” are
particularly persuasive where they are “‘both
numerous and consistent’”].)
What is more, Garber appears to be in tension—if
not downright inconsistent—with Bendix itself. As
explained above, Bendix concluded that the very same
Ohio tolling law imposed a “significant” burden on
interstate commerce by “forc[ing]” a defendant who is
out of the state after a lawsuit is filed “to choose
between” moving back to Ohio (in order to run down
the statute of limitations clock) or to remain out of
state (and6 thus remain subject to suit “in perpetuity”
and thereby lose the statute of limitations defense).
(Bendix, supra, 486 U.S. at p. 893.) That choice—and
its resulting burden on interstate commerce by
providing an incentive for the commerce-engaged
defendant to re- locate to Ohio—remains the same
whether or not that defendant started out as an Ohio
resident. Garber’s attempt to distinguish Bendix on
this ground is, for that reason, unpersuasive.
Further, Garber’s chief rationale appears to
conflate two separate strands of dormant Commerce
Clause analysis. Garber analogizes the Ohio tolling
law to state laws that deny benefits to residents who
leave a state and finds them constitutionally valid
because such laws are “not a sign of unconstitutional
protectionism” (Garber, supra, 888 F.3d at p. 844), but
the dormant Commerce Clause inquiries into a
discriminatory purpose on the one hand, and into an
excessive burden on interstate commerce on the other,
are distinct. (Davis, supra, 553 U.S. at pp. 338-339.)
Garber’s conclusion that the Ohio tolling law, as a
state law denying benefits to residents who move
away, has no discriminatory purpose does not
undermine Bendix’s wholly independent holding that

23a
the very same law imposes an unconstitutionally
excessive burden on interstate commerce. Nor does
McBurney cast any doubt (or, for that matter, any
shade) on Bendix because, as McBurney itself
acknowledged, it involved a public records access law
that created a wholly new market but limited access to
that market, whereas the tolling law at issue in
Bendix created an excessive burden on the already
existing interstate commerce marketplace.
Because we conclude that Garber is inconsistent
with California law and with Bendix itself, we decline
to follow it.
A. Actions to enforce judgments
By its plain text, section 351’s tolling rule applies
to all out- of-state defendants, regardless of the nature
of the plaintiff’s claim against them. (§ 351.) Arrow
argues that the nature of the claim alters the dormant
Commerce Clause inquiry into whether section 351
imposes an excessive burden on interstate commerce,
at least when the plaintiff is seeking to enforce a
judgment. As {fs26 noted above, outside of California
(but be subject to tolling—and hence suit—
indefinitely). (Dan Clark, supra, 193 Cal.App.4th at
p. 233; Heritage, supra, 160 Cal.App.4th at p. 764;
Abramson, supra, 897 F.2d at p. 392.) Arrow argues
that the out-of-state defendant’s decisional calculus is
different when the plaintiff is bringing a claim to
enforce a in judgment because California law makes
judgments “endlessly and effortlessly renewable.” As
a result, Arrow continues, an out- of-state defendant
in such case gains no advantage from returning to
California (because the statute of limitations clock is
irrelevant in light of the power of the plaintiff to renew
the judgment). Because section 351 in this situation

24a
creates no incentive to return to California, Arrow
concludes, it does not excessively burden interstate
commerce.
Arrow’s argument takes an impermissible
“alternate timeline” approach to constitutional
analysis. As noted above, Arrow is correct that
judgment creditors have the statutory right to renew
their judgments if they do so within 10 years. (§§
683.110, 683.120.) But renewing a judgment is an
“alternative” to suing to enforce a judgment. (Pratali,
supra, 4 Cal.App.4th at pp. 637-638; Kertesz, supra,
115 Cal.App.4th at p. 373.) Indeed, the decision to
pursue the latter indicates a decision not to pursue the
former. More to the point, it is undisputed that Arrow
chose not to renew the judgment and to sue to enforce
the judgment. Because Arrow waited 21 years to take
any action, it is now too late for Arrow to renew its
judgment. Dubin consequently faces the same
incentives under section 351 as any other out-of-state
defendant facing suit in California: Return to
California to run down the applicable limitations
period (here, 10 years in actions to enforce a
judgment), or remain out-of-state but subject to
indefinite tolling under section 351.
Because the dormant Commerce Clause analysis
in this case turns on what actions Arrow actually
took— rather than what actions Arrow might have
taken—the fact that the judgment against Dubin
might have been subject to infinite renewals in an
alternate timeline is irrelevant.
B. Rationality of section 351
Although our Supreme Court has upheld section
351 against equal protection challenges as continuing

25a
to serve a legitimate and rational state objective (Dew,
supra, 23 Cal.3d at pp. 636-637; see also G.D. Searle
& Co. v. Cohn (1982) 455 U.S. 404, 405-410 [upholding
a similar New Jersey tolling statute on equal
protection grounds]), this finding says nothing about
section 351’s validity—or, more to the point,
invalidity—under the dormant Commerce Clause as
applied to the facts of this case. (Bendix, supra, 486
U.S. at pp. 893-894 [“[S]tate interests that are
legitimate for equal protection or due process purposes
may
be insufficient to withstand Commerce Clause
scrutiny”].)
DISPOSITION
The judgment of dismissal is affirmed. Dubin is
entitled to his costs on appeal.
CERTIFIED FOR PUBLICATION.
______________________, J.
HOFFSTADT
We concur:
_________________________, Acting P.J.
ASHMANN-GERST
_________________________, J.
CHAVEZ

26a

APPENDIX C

27a
FILED
Superior Court of California
County of Los Angeles
10/29/2019
Sherri R. Carter, Executive Officer/
Clerk of Court
By Wendy Delgado, Deputy

SUPERIOR COURT OF THE
STATE OF CALIFORNIA
COUNTY OF LOS ANGELES,
NORTH CENTRAL DISTRICT
ARROW HIGHWAY
STEEL, INC., a
California corporation,
Plaintiff,

CASE NO. EC068969
[Assigned for all
purposes to the Hon.
John J. Kralik – Dept
B]

vs.
ROBERT DUBIN, an
individual; and DOES
1-50, inclusive,
Defendants.

[PROPOSED]
JUDGMENT
Hearing Date:
October 11, 2019
Time: 8:30 a.m.
Dept: B
RES. ID:
391952817565
Complaint Filed:
July 3, 2018
Trial Date:
None Set

28a
TO THE COURT, ALL PARTIES AND THEIR
ATTORNEYS OF RECORD:
On October 11, 2019, the Court granted Defendant
Robert Dubin’s (“Dubin”) Motion for Summary
Judgment pursuant to Code of Civil Procedure §437(c)
for an order that judgment be entered for Dubin and
against Plaintiff Arrow Highway Steel, Inc.
(“Plaintiff”) on Plaintiff’s Complaint on the grounds
that there are no triable issues of fact on any of
Plaintiff’s causes of action set forth in its Complaint.
NOW, THEREFORE, IT IS ORDERED,
ADJUDICATED, AND DECREED THAT:
1. Plaintiff takes nothing on its Complaint against
Dubin; and
2. Dubin shall have and recover from Plaintiff all
costs, fees and disbursements permitted by Code of
Civil Procedure §1033.5.

THE CLERK IS ORDERED TO ENTER THE
JUDGMENT.
Dated: 10/29/2019
Hon. John J. Kralik/Judge

29a

APPENDIX D

30a
DAVID M. ALMARAZ (State Bar No. 198888)
ALPERT, BARR & GRANT
A Professional Law Corporation
6345 Balboa Boulevard, Suite I-300
Encino, California 91316-1523
PHONE: (818) 881-5000; FAX: (818) 881-1150
Attorneys for Defendants.
SUPERIOR COURT OF
THE STATE OF CALIFORNIA
COUNTY OF LOS ANGELES,
NORTH CENTRAL DISTRICT
ARROW HIGHWAY
STEEL, INC., a
California corporation,
Plaintiff,

CASE NO. EC068969
[Assigned for all
purposed to the Hon.
John J. Kralik – Dept.
B]

vs.
ROBERT DUBIN, an
individual; and DOES
1-50, inclusive,
Defendants.

NOTICE OF
RULING ON
DEFENDANT
ROBERT DUBIN’S
MOTION FOR
SUMMARY
JUDGMENT
Hearing Date:
October 11, 2019
Time: 8:30 a.m.

31a
Dept: B
Res. ID:
391952817565
Complaint filed:
July 3, 2018
Trial Date:
None Set

32a
TO THE COURT, ALL PARTIES AND THEIR
COUNSEL OF RECORD HEREIN:
PLEASE TAKE NOTICE that on October 11, 2019,
at 8:30 a.m. in Courtroom B of the Los Angeles
Superior Court, Burbank Courthouse, located at 300
East Olive Avenue, Burbank, California 91502,
Defendant Robert Dubin’s (“Dubin”) Motion for
Summary Judgment came on regularly for hearing
before the Honorable John J. Kralik. David M.
Almaraz Esq., of Alpert Barr &Grant APLC appeared
on behalf of Dubin. Matthew Mickelson Esq. of the
Law Offices of Matthew Mickelson appeared for the
Plaintiff Arrow Highway Steel, Inc.
After considering all moving papers, all
opposition papers, all reply papers, hearing oral
argument of counsel and after considering the Court’s
file, the Court ruled as follows:
1. Dubin’s Motion for Summary Judgment is granted.
Copies of the Court’ Tentative Ruling which was
adopted as the Court’s final ruling and Minute
Order are attached as Exhibits “A” and “B.”
2. Dubin is ordered to submit a Proposed Judgment
within 10 days of service of the Court’s Minute
Order.
3. Dubin to give Notice.

Dated: October 22, 2019
ALPERT, BARR & GRANT
A Professional Law Corporation
By:

DAVID M. ALMARAZ
Attorneys for Defendant

33a

EXHIBIT A

34a
Superior Court of California
County of Los Angeles
North Central District
Department B
ARROW HIGHWAY
STEEL, INC.,
Plaintiff,

Case No.: EC068969
Hearing Date:
October 11, 2019

vs.
ROBERT DUBIN,
Defendant.

[TENTATIVE] ORDER
RE:
MOTION FOR
SUMMARY
JUDGMENT

BACKGROUND
A. Allegations of Complaint

The complaint in this action, filed July 3, 2018,
alleges a single cause of action, which is an action on
the judgment.
Plaintiff Arrow Highway Steel, Inc. (“Arrow”)
alleges that Defendant Robert Dubin (“Dubin”) was a
defendant and judgment debtor in the case entitled
Arrow Highway Steel, Inc, et al. v. Robert Dubin, et al.

35a
(LACS Case No. BC101768) (First Action”). Arrow
alleges that Dubin stipulated to a judgment against
him in that action, and the judgment was entered on
February 27, 1997 in favor of Arrow, Seymour Albert,
and Henrietta Albert in the amount of $937,000.00.
Dubin was the accountant of Arrow and the judgment
was a result of fraud and embezzlement against him.
Arrow alleges that this Court has personal
jurisdiction over Dubin for purposes of an
independent action to enforce the judgment, even if
Dubin had no additional contacts with California
between the time of the First Action and the
subsequent enforcement action. Dubin moved to
Nevada around 2000.
Thereafter, on June 30, 2015, Shelley Albert and
Craig Albert, as trustees of the Seymour Albert and
Henrietta Albert Revocable Trust (‘Trust”) sued
Dubin in LASC Case No. BC586724 (“Second Action”),
to enforce the judgment entered in the First Action.
The Trust argued that it was the successor-in-interest
to the judgment after the Alberts had passed away.
The court in the Second Action granted a motion for
summary judgment in Dubin’s favor on June 14, 2016.
On January 31, 2018, the Court of Appeal affirmed the
judgment in the Second Action on the ground that the
Trust lacked standing to bring the Second Action to
enforce the First Action judgment because the First
Action’s judgment had no been formally transferred to
the Trust in a probate proceeding.
B. Motion for Summary Judgment

36a
On July 26, 2019, Dubin filed a motion for
summary judgment in his favor on the following
grounds:
•

•

The Complaint is barred by the applicable
statute of limitations set forth in CCP §377.5;
and
Arrow does not have legal capacity to sue
because it lacks standing because it is a 20-year
dissolved corporation that has no more assets,
and thus cannot assert any claims. (CCP
§430.10(b).)

On September 25, 20190, Arrow filed an opposition
to the motion. Dubin filed a reply brief on October 4,
2019.
REQUEST FOR JUDICIAL NOTICE
Arrow requests judicial notice of the unpublished
opinion by the Court of Appeal in Shelly Albert v.
Dubin (Appeal No. B277826), dated January 31, 2018.
(Arrow RJN, Ex. A.) The request is granted. (Evid.
Code, §452(d).)
EVIDENTIARY OBJECTIONS
Arrow submits evidentiary objections to Dubin’s
declaration at paragraphs 12 and 21, wherein he
states that he was engaged in interstate commerce on
behalf of his clients, including Arrow and Mr. Albert.
The evidentiary objections are sustained to objection
nos. 1 and 2 as they amount to improper legal
conclusions.

37a
Dubin submits evidentiary objections to the
declaration of Gary Albert, which are overruled. The
Court notes that the ruling on the evidentiary
objections of Mr. Albert’s declaration has no affect on
the ruling of this motion.
DISCUSSION
A. Undisputed Material Facts

The following facts are essentially undisputed by
the parties.
Dubin has an accounting degree. (Def.’s Separate
Statement Fact [“DSSF”] 1.)
In 1964, he did accounting work for Gold Mason
and Wilder in 1964, and frequently traveled outside of
California for work (Def.’s Separate Statement Fact
[“DSSF”] 2-4)
Dubin then worked for Rooten, Getz and Co. where
he did similar work and completed his hours to obtain
a CPA license. (DSSF 5-7.) At Rootenberg, Dubin met
Seymour Albert (“Mr. Albert”), who owned Arrow,
both of whom were clients of Rootenberg (DSSF 8-9.)
Dubin represented Arrow and Mr. Albert and
performed general accounting work, including general
bookkeeping,
accounting
services,
preparing
federal/state/local/sales
tax,
and
worker’s
compensation audits (DSSF 10.) Dubin handled
worker’s compensation audits for Arrow, which
required him to communicate with insurance
companies across state lines, until he stopped
representing them in 1995. (DSSF 11-12.)

38a
In 1967, Dubin received his CAP license. (DSSF
13.) Soon thereafter, Dubin started his own company,
Robert Dubin CPA, which was a full-service
accounting firm that represented clients all over the
United States. (DSSF 14-15, 17.) During this time,
Robert Dubin CPA facilitated and obtained credit
financing for Arrow across state lines, performed
Arrow and Mr. Albert’s accounting work, and
allegedly falsified checks at a national bank. (DSSF
17-18.)
Dubin was convicted of bankruptcy fraud, which
arose in part out of Arrow and Mr. Albert’s complaint.
(DSSF 21.)
In December 1997, Arrow filed a Certificate of
Dissolution with the California Secretary of State.
(DSSF 32.) The certificate stated that Mr. Albert was
the sole director, Arrow had been completely wound
up, Arrow’s known debts and liabilities had been paid,
Arrow’s known assets had been distributed to the
persons entitled thereto and Arrow had been
dissolved (DSSF 33.)
In 1998, Dubin permanently moved to Nevada to
start a new business. (DSSF 22.) In 1999, he started
Answerman Tax Services. (DSSF 23-24.) Answerman
does general accounting work and represents clients
all over the United States and outside the United
States. (DSSF 25.)
In 2007, Dubin became an Enrolled Agent for the
IRS, which is a federally authorized tax practitioner
who has technical expertise in the field of taxation and
may represent taxpayers before all administrative

39a
levels of the IRS. (DSSF 26-27.) Since moving to
Nevada, Dubin has represented clients all over the
United States. (DSSF 28.)
The judgment has not been renewed. (DSSF 30.)
Within 10 years of judgment being entered, Arrow has
not filed an action on the judgment. (DSSF 31.)
B. Legal Capacity, Standing

The Court first addresses whether Arrow has the
legal capacity as a dissolved corporation to bring this
action.
Corporations Code, §2010 states:
(a) A corporation which is dissolved nevertheless
continues to exist for the purposes of winding up its
affairs, prosecuting and defending actions by or
against it and enabling it to collect and discharge
obligations, dispose of and convey its property and
collect and divide its assets, but not for the purpose
of continuing business except so far as necessary for
the winding up thereof.
(b) No action or proceeding to which a corporation is a
party abates by the dissolution of the corporation or
by reason of proceedings for winding up and
dissolution thereof.
(c) Any assets inadvertently or otherwise omitted from
the winding up continue in the dissolved
corporation for the benefit of the persons entitled
thereto upon dissolution of the corporation and on
realization shall be distributed accordingly.

40a
(Corps. Code, §2010.)
The effect of a corporation’s dissolution is not so
much a change in its status, as a change in its
permitted scope of activity (Penasquitos v. Superior
Court (1991) 53 Cal.3d 1180, 1190.)
“Thus, a
corporation’s dissolution is best understood not as its
death, but merely as its retirement from active
business” (Id.) “[A] dissolved corporation maintains
considerable corporate powers to conduct whatever
business is required to wind up its affairs-including
prosecuting actions and enforcing judgments.”
(“Timberline, Inc. v. Jaisinghani (1997) 54 Cal.App.4th
1361, 1368-69; Fladeboe v. Am. Isuzu Motors Inc.
(2007) 150 Cal.App.4th 42, 55 [commenting that even
though corporation had filed a certificate of
dissolution, it was not deprived of standing under
section 2010 to wind up affairs, so long as it is not a
continuation of its business].)
Dubin argues that after the judgment had been
entered in February 1997, Arrow filed its Certificate
of Dissolution in December of 1997. (DSSF 21, 32;
MSJ Evid., Ex H [Certificate of Dissolution of Arrow].)
It is undisputed that the certificate states Mr. Albert
is the sole director of Arrow, Arrow has been
completely wound up”’ Arrow’s “known assets have
been distributed to the person entitled thereto”’ and
Arrow is dissolved. (DSSF 33.)
Though Arrow may be a dissolved corporation,
Corporations Code, §2010(a) expressly allows a
corporation to exist to wind up its affairs and to
prosecute actions to collect obligations. Subsection (b
also states that no action abates merely because the

41a
corporation has dissolved. Further, Dubin has not
provided case law showing that a dissolved
corporation is prevented from taking any further
actions to wind up its affairs or pursue/defend
litigations.
Moreover, even if the certificate states that
Arrow’s known assets have been distributed, “[a]ny
assets inadvertently or otherwise omitted from the
winding up continue in the dissolved corporation for
the benefit of the persons entitled thereto upon
dissolution of the corporation and on realization shall
be distributed accordingly.” (Corp. Code, §2010©.)
Dubin has not shown by way of this motion that Mr.
Albert’s omission of any assets (i.e., the judgment) was
inadvertent or not.
The Court does not find that Dubin has upheld his
initial burden in summary judgment on the issue of
lack of capacity or standing of Arrow to bring this
action. Thus, the motion for summary judgment will
not be granted on this basis.
C. Statute of Limitations

Dubin moves for summary judgment, arguing that
the complaint: (1) is barred by the applicable statute
of limitations set forth in CCP §337.5 and (2) is not
tolled by the provisions of CCP §351.
CCP §683.020 states that upon the expiration of 10
years after the date of entry of a money judgment, the
judgment may not be enforced, all enforcement
procedures shall cease, and any lien created by an
enforcement procedure is extinguished. Within 10

42a
years, an action may be filed upon a judgment in any
state within the United Stated. (CCP §337.5(b).)
However, the 10 year limitations period is tolled
while the defendant (judgment debtor) is outside of
California. (Trend v. Bell (1997) 57 Cal.App.4th 1092,
1098.) CCP §351 provides: “If, when the cause of
action accrues against a person, he is out of the State,
the action may be commenced within the term herein
limited, after his return to the State, and if, after the
cause of action accrues, he departs from the State, the
time of his absence is not part of the time limited for
the commencement of the action.”
It is undisputed that the judgment in the First
Action was entered on February 27, 1997. (DSSF 21.)
The judgment has not been renewed and Arrow did
not file an action on the judgment within 10 years of
the judgment being entered (DSSF 30-31.) Based on
these undisputed facts, Dubin has established that
the 10-year state of limitation has run on Arrow’s
claim.
Thus, next, the Court must determine whether
CCP §351’s tolling provision applies to the facts of this
case. Dubin argues that he has performed accounting
services for Arrow that implicated interstate
commerce and that when he moved to Nevada to stary
a new accounting business, his new business also
implicated the interstate commerce. Dubin argues
that if interstate commerce is implicated, the tolling
provision of CCP §351 cannot be applied towards him
as it would be unconstitutional. The cases Dubin cites
for this proposition are Bendix Autolite Corp. v.
Midwesco Enterprises, Inc. (1988) 486 U.S. 888[1];

43a
Heritage Marketing and Insurance Services, Inc. v.
Chrustawka (2008 160 Cal.App.4th754; Abramson v.
Brownstein (9th Cir. 1989) 8907 F.2d389, Pratali v.
Gates (1992) 4 Cal.App.4th 632; Filet Menu, Inc. v.
Cheng (1999) 71 Cal.App.4th1276; and Dan Clark
Family Ltd. P’Ship v. Miramontes (2011) 193
Cal.App.4th 219.
Dubin provides evidence that he performed
accounting services for Arrow and Mr. Albert while
Dubin was employed under Rootenberg and his own
accounting firm, from around 1967 to 1994 when the
First Action was commenced. (DSSF 14-18.) It is also
undisputed that Dubin’s accounting firm, Robert
Dubin CPA, had accounting clients from all over the
United States and that he facilitated and obtained
credit financing for Arrow across state lines. (DSSF
16-17.) Thereafter, Dubin permanently moved to
Nevada in 1998 to start Answerman Tax Services,
which does general accounting work and performs
services for clients all over the United States and
outside the United States. (DSSF 22-25.) Dubin also
states that he performs tax services for clients all over
the United States. (DSSF 26-28.)
Thus, Dubin has established his initial burden in
showing that he engaged in interstate commerce
while he performed accounting services for Arrow and
Mr. Albert, he continues to do so today at his
accounting firm in Nevada and in his role as an
Enrolled Agent with the IRS, and his continued
absence from California is for the facilitation of
interstate commerce. (See Filet Menu, supra, 71
Cal.App.4th at 1283.) He has also established that his
permanent domicile is located in Nevada, as of 1998 –

44a
a year after the judgment in the First action was
entered.
Next, based on the undisputed facts of this case,
the Court finds that applying CCP §351’s tolling
provision to this case would impermissibly burden
interstate commerce and thereby violate the
Commerce Clause as applied to Dubin. To determine
whether section 351 would amount to an
impermissible burden on interstate commerce, the
Court: (1) assesses the burden section 351 would
impose on interstate commerce under the
circumstances (i.e., examine the extent to which
section 351 restricts the flow of interstate commerce
in a manner not applicable to local business and
trade), and then (2) determine whether the burden is
counterbalanced by state interests supporting section
351. (Filet Menu, supra, 71 Cal.App.4th at 1282.)
First, applying section 351 to Dubin would
amount to an unreasonable burden on interstate
commerce as a nonresident of California because
section 351 would force “a nonresident individual
engaged in interstate commerce to choose between
being present in California for several years or
forfeiture of the limitations defense, remaining
subject to suit in California in perpetuity” (Heritage,
supra, 160 Cal.Ap.4th at 760 quoting Abramson v.
Brownstein (9th Cir 1990) 897 F.2d 389, 392.) In other
words, such a choice would essentially force Dubin to
“either become [a] resident [] of California or be
subject to suit in California in perpetuity”, which
would be an untenable choice under the Commerce
Clause. (Dan Clark, supra, 193 Cal.App.4th at 233.)
[2] Second, the state’s interest in applying section

45a
351’s tolling provision does not outweigh the burden
on interstate commerce because California has a longarm statute that would permit service on a foreign
defendant like Dubin (See id. at 233-234.)
In opposition, Arrow argues that the dormant
commerce clause does not bar this action and relies
upon Garber v. Menedez (6th Cir. 2018) 888 F. 3d 839.
However, this is out-of-state federal case was decided
in the Sixth Circuit Court and is thus non-binding
precedent, particularly in light of the numerous cases
determined by the California courts.
Next, Arrow argues that this case is similar to
Pratali v. Gates (1992) 4 Cal.App.4th 632 and Kohan v.
Cohen (1988) 204 Cal.App.3d 915.
In Pratali, Pratali sued Gates (both California
residents) on a promissory note that was executed in
Nevada. The Court of Appeal held that the limitations
period was tolled under section 351 because the
section was not unconstitutionally invalid on its face
or as applied to the facts of the specific case. “[W]hile
section 351’s tolling provision may violate the
commerce clause as applied to a defendant engaged in
interstate commerce, there is no showing the statute
violates the commerce clause when applied to a
noncommercial defendant not engaged in interstate
commerce.” (Pratali, supra, 4 Cal.App.4th at 643.) In
Pratali, both parties were local residents, the alleged
injury did not involve interstate commerce, and thus
there was no interaction between section 351 and the
commerce clause such that no conflict arose. (Id.)
While the loan was made in Nevada and payable in
California, there was no evidence that Pratali was in

46a
the business of making loans or was otherwise
engaged in commerce, nor was there any evidence
that Gates used the loan proceeds in a commercial
venture in another state. (Id.) “In any event, we
question whether a single amicable loan between
California acquaintances while visiting in Las Vegas
can rise to the level of interstate commerce within the
meaning of the commerce clause-however the
proceeds are used.” (Id.) Under the particular facts of
the case, section 351’s tolling provision did not violate
the commerce clause. (Id.)
The Court finds Pratali to be distinguishable.
As summarized in Filet Menu, Pratali involved a
“single amicable noncommercial loan between
California residents arranged in Las Vegas and
payable in San Francisco [which] does not implicate
interstate commerce, and thus applying section 351 in
[a] lawsuit arising out of a loan does not violate [the]
commerce clause.” (Filet Menu, supra 71 Cal.App.4th
at 1283 [emphasis added].) In contrast to Pratali,
here, Dubin is in the business of providing accounting
services (on an ongoing and commercial basis) and
Dubin’s provisions of accounting services to Arrow
and Mr. Albert was not a “single amicable
noncommercial” transaction.
The Court also does not find that Kohan applies to
this case. Kohan involved brothers who were natives
of Iran and had transacted business together in
accumulating real and personal property in their
names. The Court of Appeal held: “That acts giving
rise to the causes of action herein occurred in Iran
while defendants were residents of that country does
not affect wither interstate commerce or commerce

47a
between the United States and Iran, nor does it
establish that defendants were engaged in interstate
commerce by any definition of that term.” (Kohan v.
Cohan (1988) 204 Cal.App.3d 915, 924.)
Finally, Arrow provides additional material
facts (“AMF”) in the separate statement, but these
facts do not raise a triable issue of material fact. The
AMF include facts that in the mid-1990s, Dubin
executed a fraudulent scheme and embezzled money
from Arrow (a California corporation), which
financially devastated Arrow. (PL’s AMF 35, 37, 38,
40; see also ruling on Evidentiary Objections.) Dubin
was California resident from 1967 to 1998, and he was
Arrow’s sole CPA for 26 years. (Pl.’s AMF 36, 39.) The
First Action’s judgment has not been appealed,
reserved, vacated, modified, stayed, or set aside, and
Dubin has not made any payments towards this
judgment. (Pl.’s AMF 41-42.) After Mr. & Mrs. Albert
died in 2009 and 2012, respectively, the Trust brought
suit against Dubin, but the Superior Court granted
Dubin’s motion for summary judgment on the ground
the tolling provision of section 351 was preempted by
the commerce clause (Pl.’s AMF 44-45.) The Trust
appealed, and the Court of Appeal affirmed the
judgment on the ground that Trust lacked standing to
bring the action, but did not rule on the constitutional
issue. (Pl.’s AMF 46.) However, none of these facts
raise a triable issue of material fact disputing whether
Dubin was or was not engaged in interstate commerce
and whether section 351’s tolling provisions applies.
Thus, the Court finds that Dubin has upheld his
initial burden in summary judgment and Arrow has
failed to raise a triable issue of material fact.

48a
Accordingly, Dubin’s motion for summary judgment is
granted.
CONCLUSION AND ORDER
Dubin’s motion for summary judgment is granted.
Dubin is ordered to electronically lodge/file with the
Court and serve on Arrow a proposed judgment within
10 days.
Dubin shall give notice of this order.
[1] In Bendix, Bendix (Delaware corporation with
principal place of business in Ohio) sued Midwesco
(Illinois corporation) for breach of contract in Ohio.
Midwesco argued that under the Ohio statute of
limitations, while Bendix argued that the statutory
period had not elapsed based on tolling of claims
against entities that are not within Ohio and have not
designated an agent for service of process. The
district court dismissed the action finding that the
Ohio tolling statute constituted an impermissible
burden on interstate commerce, which the Sixth
Circuit court and Supreme Court affirmed. The
Supreme Court found that the burden imposed on
interstate commerce by the tolling statute exceeded
any local interest that the State might advance.
(Bendix, supra, 486 U.S. at 891.) The Court found
that the tolling statute placed a significant burden on
interstate commerce because it would force Midwesco
to appoint a resident agent for service of process in
Ohio and subject itself to the general jurisdiction of
the Ohio courts (Id. at 891-92.j) “The Ohio statutory
scheme thus forces a foreign corporation to choose
between exposure to the general jurisdiction of Ohio

49a
courts or forfeiture of the limitations defense,
remaining subject to suit in Ohio in perpetuity.
Requiring a foreign corporation to appoint an agent
for service in all cases and to defend itself with
reference to all transactions, including those in which
it did not have the minimum contacts necessary for
supporting personal jurisdiction, is a significant
burden.” (Id. at 893)
[2] Dan Clark (Ct. App. 4th Dist): Dan Clark (Texas
LP) sued the Miramonteses (Mexico residents) for
conversion of 3 vehicles. The Court of Appeal affirmed
the trial court’s order sustaining the Miramontes’
demurrer on the basis that the action was time barred
and the action was not tolled based on section 351
while they were out of state. The Court found that the
underlying conduct of Dan Clark’s claims was an
interstate commercial transaction and that applying
section 351 to the case would deny the Miramonteses
the ordinary legal defenses of the statute of
limitations and would place an impermissible burden
on commerce (Dan Clark, supra, 193 Cal.App.4th 232.)
The statute imposed a burden because it inhibited the
flow of goods interstate and would force the
Miramonteses to choose between remaining in
California until the limitations period expired, or
returning to their place of residence and forfeit the
limitations defense and remain subject to suit in
California in perpetuity—which would discourage
interstate travel and burden any commerce during
those travels (Id. at 233.)
CASE NUMBER: EC069221
Hearing Date: October 11, 2019
Dept: NCB

50a

EXHIBIT B

51a
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF LOS ANGLES
Civil Division
North Central District,
Burbank Courthouse, Department B
EC068969
October 11, 2019
ARROW HIGHWAY STEEL, INC.,
1:56 PM
VS. ROBERT DUBIN
Judge: Honorable John J. Kralik
Judicial Assistant: W. Delgado
Courtroom Assistant: P. Booker

CSR: None
ERM: None
Deputy Sheriff:
None

APPEARANCES:
For Plaintiff(s): No Appearances
For Defendant(s): No Appearances
NATURE OF PROCEEDINGS:
Submitted Matter

Ruling

on

The Court, having taken the matter under submission
on 10/11/2019, now rules as follows: Dubin’s motion
for summary judgment is granted. Dubin is ordered
to electronically lodge/file with the Court and serve on
Arrow a proposed judgment within 10 days.
Based upon the above ruling, the Court vacates the
trial date.
On the Court’s own motion, the Final Status
conference scheduled for 01/23/2020, and Jury Trial

52a
scheduled for 02/03/2020 are advanced to this date
and vacated.
Non-Appearance Case Review re: Receipt of
Judgment for MSJ is scheduled for 11/06/2019 at
09:00 AM in Department B at Burbank Courthouse.
Counsel for defendant is ordered to give notice.

Minute Order

Page 1 of 1

